DEPARTMENT OF HOMELAND SECURITY
   Office of Inspector General


 FY 2007 Audit of DHS' Internal Control
       Over Financial Reporting




                             November 2007
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

       Call our Hotline at 1-800-323-8603;
       Fax the complaint directly to us at (202) 254-4292;
       Email us at DHSOIGHOTLINE@dhs.gov;or
       Write to us at:
         DHS Office of Inspector GeneraVMAIL STOP 2600, Attention:
         Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
         Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
